   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                        Washington, D.C. 20201




August 24, 2010

TO:            Mary Wakefield, Ph.D., R.N.
               Administrator
               Health Resources and Services Administration


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Results of Limited Scope Review of Bronx-Lebanon Integrated Services System,
               Inc.’s Process for Compiling and Reporting Selected Recovery Act Data
               (A-02-10-02010)


Attached, for your information, is an advance copy of our final report on Bronx-Lebanon
Integrated Services System, Inc. (BLISS). We will issue this report to BLISS within 5 business
days. The review was requested by the Recovery Accountability and Transparency Board.

If you have any questions or comments about this report, please do not hesitate to contact me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to report number
A-02-10-02010 in all correspondence.


Attachment
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




RESULTS OF LIMITED SCOPE REVIEW OF
BRONX-LEBANON INTEGRATED SERVICES
SYSTEM, INC.’S PROCESS FOR COMPILING
     AND REPORTING SELECTED
         RECOVERY ACT DATA




                        Daniel R. Levinson
                         Inspector General

                           August 2010
                          A-02-10-02010
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services
                                                                          Jacob Javits Federal Building
                                                                          26 Federal Plaza, Room 3900
                                                                          New York, NY 10278
August 26, 2010

Report Number: A-02-10-02010

Ms. Saudah Muhammad
Executive Director
Bronx-Lebanon Integrated Services System, Inc.
1650 Selwyn Avenue, Apt. 11H
Bronx, New York 10457

Dear Ms. Muhammad:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Results of Limited Scope Review of Bronx-Lebanon
Integrated Services System, Inc.’s Process for Compiling and Reporting Selected Recovery Act
Data. We will forward a copy of this report to the HHS action official noted on the following
page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact John J. Madigan, Audit Manager, at (518) 437-9390, extension 224, or through email at
John.Madigan@oig.hhs.gov. Please refer to report number A-02-10-02010 in all
correspondence.

                                             Sincerely,


                                             /Richard Schlitt/ for
                                             James P. Edert
                                             Regional Inspector General
                                               for Audit Services


Enclosure
                                  EXECUTIVE SUMMARY

BACKGROUND

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, was
enacted February 17, 2009, to preserve and create jobs; to assist those most affected by the
recession; to increase economic efficiency by investing in technological advances in science and
health care; to invest in transportation, environmental protection, and other infrastructure that
will provide long-term economic benefits; and to stabilize State and local budgets. The
Recovery Act provides approximately $145.7 billion to the Department of Health & Human
Services (HHS).

To promote transparency and accountability, section 1512 of the Recovery Act requires each
recipient of Recovery Act funds to report on its use of funds to the applicable Federal agency not
later than 10 days after the end of each calendar quarter. The reports should include, among
other things, the total amount of Recovery Act funds received, funds expended, project status,
final project report indicator, and the number of jobs created or retained with Recovery Act
funds. To implement section 1512, the Office of Management and Budget (OMB) issued
guidance for reporting Recovery Act data.

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health Center
Program under Section 330 of the Public Health Service Act, codified at 42 U.S.C. § 254(b). Within
HHS, the Health Resources and Services Administration (HRSA) administers the Health Center
Program. Under the Recovery Act, HRSA received $2.5 billion in fiscal year (FY) 2009,
including $2 billion to expand the Health Center Program to serve more patients, stimulate new
jobs, and meet the significant increase in demand for primary health care services among the
Nation’s uninsured and underserved populations. HRSA has provided guidance on compiling
and reporting Recovery Act data to health centers awarded Recovery Act funds which
incorporates OMB’s guidance.

Bronx-Lebanon Integrated Services System, Inc. (BLISS), is a nonprofit health center organized
in 1996 to provide medical, dental, social, and substance abuse services. BLISS provides these
services primarily to residents of the south and central sections of The Bronx, New York. BLISS
is funded primarily through HRSA grants. During FY 2009, HRSA awarded BLISS a 2-year
Recovery Act grant totaling $2,500,000 for capital improvements and the implementation of an
electronic health records system.

Our review covered recipient data submitted during the second and third reporting periods. The
second reporting period covered October 1 through December 31, 2009, and the third reporting
period covered January 1 through March 31, 2010.

OBJECTIVE

Our objective was to determine whether BLISS’s processes for compiling and reporting selected
data provided reasonable assurance of compliance with section 1512 requirements of the
Recovery Act.


                                                 i
SUMMARY OF FINDINGS

BLISS’s processes for reporting the selected data elements in the second and third reporting
period generally provided reasonable assurance that it complied with section 1512 requirements
of the Recovery Act. Specifically, BLISS accurately reported funds received, project status, and
the final project report indicator. However, BLISS:

   •   overstated the number of jobs created by 12 full-time equivalents (FTEs) in the second
       reporting period and by 10.62 FTEs in the third reporting period because it did not
       comply with Federal guidance on calculating FTEs and

   •   understated funds expended by $211,712 for the third reporting period because,
       according to BLISS officials, there was a miscommunication between the officials
       regarding section 1512 reporting requirements.

These deficiencies occurred because although BLISS had processes for gathering and reviewing
data elements before submitting the data through FederalReporting.gov, it did not have adequate
written policies and procedures for reporting the data elements in accordance with the Recovery
Act requirements. The processes were also not designed to detect errors caused by following
guidance not applicable to the reporting period. The reporting errors could have resulted in the
public being misled or confused by BLISS’s use of Recovery Act funds.

RECOMMENDATIONS

We recommend that BLISS:

   •   strengthen its written policies and procedures for compiling and reporting Recovery Act
       data elements,

   •   follow current HRSA guidance that incorporates OMB reporting guidance, and

   •   ensure that similar errors are not made in subsequent reporting periods.

BRONX-LEBANON INTEGRATED SERVICES SYSTEM, INC., COMMENTS

In written comments on our draft report, BLISS concurred with our findings and described
actions that it had taken to address our recommendations. BLISS’s comments are included in
their entirety as the appendix.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              American Recovery and Reinvestment Act ...................................................1
              Section 1512 Reporting Requirements ..........................................................1
              Office of Management and Budget Implementing Guidance ........................1
              Health Resources and Services Administration .............................................2
              Bronx-Lebanon Integrated Services System, Inc...........................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................3
               Objective ........................................................................................................3
               Scope ..............................................................................................................3
               Methodology ..................................................................................................3

FINDINGS AND RECOMMENDATIONS ......................................................................4

          DATA ELEMENTS REPORTED .............................................................................4
               Recovery Act Reporting Requirements .........................................................4
               Data Elements Accurately Reported ..............................................................5
               Data Elements Inaccurately Reported ............................................................5
               Conclusion .....................................................................................................6

          RECOMMENDATIONS ...........................................................................................6

          BRONX-LEBANON INTEGRATED SERVICES SYSTEM, INC.,
          COMMENTS. ............................................................................................................6

APPENDIX

          BRONX-LEBANON INTEGRATED SERVICES SYSTEM, INC., COMMENTS




                                                                    iii
                                              INTRODUCTION

BACKGROUND

American Recovery and Reinvestment Act

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, was
enacted February 17, 2009, to preserve and create jobs; to assist those most affected by the
recession; to increase economic efficiency by investing in technological advances in science and
health care; to invest in transportation, environmental protection, and other infrastructure that
will provide long-term economic benefits; and to stabilize State and local budgets. The
Recovery Act provides approximately $145.7 billion to the Department of Health & Human
Services (HHS).

Section 1512 Reporting Requirements

To promote transparency and accountability, section 1512 of the Recovery Act requires quarterly
reporting by recipients of certain funds made available under the Recovery Act. A recipient
includes any non-Federal entity, other than an individual, that receives Recovery Act funds
directly from the Federal Government. Section 1512 reporting requirements apply mainly to
recipients of grants, contracts, and loans for discretionary programs. Section 1512(c) requires
each recipient to report to the applicable Federal agency not later than 10 days after the end of
each calendar quarter:

    •   the total amount of Recovery Act funds received and the amount that was expended or
        obligated;

    •   a detailed list of all projects for which Recovery Act funds were expended or obligated,
        including the project name, description, and completion status and an estimate of the
        number of jobs created or retained; and

    •   detailed information on payments to subrecipients and vendors. 1

Office of Management and Budget Implementing Guidance

To implement section 1512 of the Recovery Act, on June 22, 2009, OMB issued memorandum
M-09-21, which requires recipients to report detailed information on their projects. 2 This
guidance applies to recipients of grants, loans, tribal agreements, cooperative agreements, and
other forms of assistance. During the second reporting period, October 1 through December 31,
1
  A vendor is a dealer, distributor, merchant, or other seller providing goods or services for a Federal program. A
recipient or subrecipient may purchase from vendors those goods or services needed to carry out a project (Office of
Management and Budget (OMB) memorandum M-09-21, section 2.2, p. 7 (June 22, 2009)).
2
  Section 3.1 of M-09-21 requires that the information reported by recipients and subrecipients of Recovery Act
funds be submitted through FederalReporting.gov, reviewed by the funding agency, and published on Recovery.gov.
Programs subject to the reporting requirements in section 1512 of the Recovery Act are listed in Supplement 1 of
M-09-21.

                                                         1
2009, OMB updated its guidance (memorandum M-10-08) to incorporate lessons learned from
the first reporting period (ended September 30, 2009) and address recommendations of the
Government Accountability Office. The update simplified the manner in which job estimates are
calculated and reported. Specifically, recipients now report job estimates on a quarterly, rather
than a cumulative basis; all other data elements are still reported cumulatively. Recipients are no
longer required to sum various data on hours worked across multiple quarters of data when
calculating job estimates. In addition, recipients are no longer required to make a subjective
judgment on whether jobs were created or retained as a result of the Recovery Act.

Health Resources and Services Administration

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health
Center Program under Section 330 of the Public Health Service Act, codified at 42 U.S.C.
§ 254(b). Pursuant to 42 U.S.C. § 254(b), the Health Center Program is a national program
designed to provide comprehensive primary health care services to medically underserved
populations through planning and operating grants to health centers. Within HHS, the Health
Resources and Services Administration (HRSA) administers the Health Center Program.

The Health Center Program provides grants to nonprofit, private, or public entities that serve
designated medically underserved populations, including migrant and seasonal farm workers, the
homeless, and residents of public housing. Health centers funded by HRSA are community
based, patient-directed organizations that meet the definition of “health center” under 42 U.S.C.
§ 254(b).

Under the Recovery Act, HRSA received $2.5 billion in fiscal year (FY) 2009, including
$2 billion to expand the Health Center Program to serve more patients, stimulate new jobs, and
meet the significant increase in demand for primary health care services among the Nation’s
uninsured and underserved populations.

On December 29, 2009, HRSA issued the third edition of the Health Center Quarterly Reporting
Manual (the reporting manual), which incorporates OMB’s revised guidance. The reporting
manual provides guidance to assist health centers awarded Recovery Act funds in reporting
section 1512 Recovery Act data elements. In addition, the reporting manual requires recipients
to report on a limited number of health center program performance elements to allow HRSA to
report on and demonstrate the impact of health center activities funded under the Recovery Act.
To further assist recipients in reporting Recovery Act data elements, HRSA holds a quarterly
technical conference call that addresses reporting requirements.

Bronx-Lebanon Integrated Services System, Inc.

Bronx-Lebanon Integrated Services System, Inc. (BLISS), is a nonprofit health center organized
in 1996 to provide medical, dental, social, and substance abuse services. BLISS provides these
services primarily to residents of the south and central sections of The Bronx, New York.




                                                2
BLISS is funded primarily through HRSA grants. During FY 2009, HRSA awarded BLISS a
2-year Recovery Act grant totaling $2,500,000 for capital improvements and the implementation
of an electronic health records system.

OBJECTIVE, SCOPE, METHODOLOGY

Objective

Our objective was to determine whether BLISS’s processes for compiling and reporting selected
data provided reasonable assurance of compliance with section 1512 requirements of the
Recovery Act.

Scope

Our review covered recipient data submitted during the second and third reporting periods. The
second reporting period covered October 1 through December 31, 2009, and the third reporting
period covered January 1 through March 31, 2010. We reviewed BLISS’s processes in
compiling and reporting Recovery Act data elements for the second reporting period and the
actions taken to enhance data quality for the third reporting period. Specifically, we selected the
data elements for jobs created, funds received, funds expended, project status, and final project
report indicator to ensure compliance with section 1512 requirements of the Recovery Act. To
gain an understanding of BLISS’s compiling and reporting of Recovery Act data elements, we
conducted a limited review of the internal controls related to our audit objective.

We performed our fieldwork at BLISS’s administrative office in The Bronx, New York, during
May 2010.

Methodology

To accomplish our objective, we:

    •   reviewed relevant Federal laws, regulations, and guidance;

    •   reviewed BLISS’s HRSA Capital Improvement Program (CIP) 3 grant application and
        award;

    •   reviewed BLISS’s Recovery Act reported data elements and comments reported on
        FederalReporting.gov;

    •   interviewed personnel to gain an understanding of BLISS’s Recovery Act reporting
        processes;



3
 The CIP award made available by the Recovery Act supports health centers in addressing capital improvement
needs, such as construction, repair, renovation, and equipment purchases, including health information technology
systems.

                                                         3
   •   performed analytical procedures to determine the reasonableness of the reported data
       elements when compared with supporting documentation for expenditures and funds
       received, and jobs created and retained; and

   •   discussed our findings with BLISS’s officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

BLISS’s processes for reporting the selected data elements in the second and third reporting
period generally provided reasonable assurance that it complied with section 1512 requirements
of the Recovery Act. Specifically, BLISS accurately reported funds received, project status, and
the final project report indicator. However, BLISS:

   •   overstated the number of jobs created by 12 full-time equivalents (FTEs) in the second
       reporting period and by 10.62 FTEs in the third reporting period because it did not
       comply with Federal guidance on calculating FTEs; and

   •   understated funds expended by $211,712 for the third reporting period because,
       according to BLISS officials, there was a miscommunication between the officials
       regarding section 1512 reporting requirements.

These deficiencies occurred because although BLISS had processes for gathering and reviewing
data elements before submitting the data through FederalReporting.gov, it did not have adequate
written policies and procedures for reporting the data elements in accordance with the Recovery
Act requirements. The processes were also not designed to detect errors caused by following
guidance not applicable to the reporting period. The reporting errors could have resulted in the
public being misled or confused by BLISS’s use of Recovery Act funds.

DATA ELEMENTS REPORTED

Recovery Act Reporting Requirements

OMB memorandum M-09-21, section 2.5, states that all data contained in each quarterly
recipient report will be cumulative to encompass the total amount of funds expended to date.
However, OMB later issued memorandum M-10-08 allowing for recipients to report job estimate
information on a quarterly basis, rather than a cumulative one.

OMB memorandum M-10-08 states that the estimated number of jobs created should be
expressed as FTEs. Specifically, OMB memorandum M-10-08 states that in calculating an FTE,
the number of actual hours worked in funded jobs are divided by the number of hours

                                               4
representing a full work schedule for the kind of job being estimated. These FTEs are then
adjusted to count only the portion corresponding to the share of the job funded by Recovery Act
funds. All other reporting elements continue to be reported cumulatively.

HRSA’s third edition of the reporting manuals restates OMB’s guidance that FTEs will be
reported only to the extent that Recovery Act funds are used.

Data Elements Accurately Reported

BLISS was in compliance with OMB and HRSA guidance on the reporting of second period data
elements for funds received, funds expended, project status, and final project report indicator.
Specifically, BLISS accurately reported that no funds were received or expended, and the CIP
grant project status as less than 50 percent completed. Therefore, BLISS correctly reported the
final project indicator as “not completed.”

Data Elements Inaccurately Reported

Overstated the Number of Jobs Created for the Second and Third Reporting Periods

BLISS overstated the number of jobs created by inappropriately reporting the number of FTEs it
anticipated on hiring—not the actual number of FTEs hired with Recovery Act funds. Therefore,
BLISS reported 17.8 FTEs for the second reporting period and 15.8 FTEs for the third reporting
period. BLISS’s reporting of the second and third period jobs numbers were inconsistent with
OMB and HRSA guidance to report only the number of jobs funded by Recovery Act funds. As
a result, BLISS overstated the number of jobs reported by 12 FTEs (17.8 FTEs reported less 5.8
FTEs that should have been reported) in the second reporting period and by 10.62 FTEs (15.8
FTEs reported less 5.18 FTEs that should have been reported) in the third reporting period.

In May 2010, BLISS accurately recalculated its FTE data for the third reporting period and
revised its report to indicate the correct number of FTEs hired. However BLISS officials stated
they could not revise the number of FTEs reported for the second reporting period because the
deadline for revising this information had lapsed.

Understated the Total Federal Amount of Funds Expended for the Third Reporting Period

BLISS understated funds expended by $211,712 for the third reporting period. BLISS officials
indicated that they did not report these expenditures because BLISS had not received expenditure
information from a subrecipient. However, in March 2010, prior to the closing of the third
reporting period, BLISS had received information from the subrecipient related to salary
expenses that should have been reported. BLISS officials stated that they did not report this
information because of a miscommunication between officials. The officials stated that the
miscommunication has since been resolved and that BLISS has revised its procedures for
reporting expenditures. However BLISS officials stated they could not revise funds expended
for the third reporting period because the deadline for revising this information had lapsed.




                                               5
Conclusion

BLISS senior officials had implemented a review process for gathering and reviewing data
elements before submitting data through FederalReporting.gov. However, the process did not
ensure that reported Recovery Act data elements complied with HRSA and OMB guidance, and
management did not always follow current guidance when reporting specific data elements. Our
review of BLISS’s process, policies, and procedures noted the following weaknesses:

   •   BLISS did not have adequate policies and procedures to ensure that it complied with the
       most up-to-date HRSA and OMB reporting guidance.

   •   BLISS did not establish or implement data quality checks, nor perform analytical
       procedures as stipulated in OMB guidance. Although BLISS officials reviewed data
       elements submitted to the Federal agency, there were no procedures to ensure that data
       elements reported were reasonable.

The reporting errors could have resulted in the public being misled or confused by BLISS’s use
of Recovery Act funds.

RECOMMENDATIONS

We recommend that BLISS:

   •   strengthen its written policies and procedures for compiling and reporting Recovery Act
       data elements,

   •   follow current HRSA guidance that incorporates OMB reporting guidance, and

   •   ensure that similar errors are not made in subsequent reporting periods.

BRONX-LEBANON INTEGRATED SERVICES SYSTEM, INC., COMMENTS

In written comments on our draft report, BLISS concurred with our findings and described
actions that it had taken to address our recommendations. BLISS’s comments are included in
their entirety as the appendix.




                                                6
APPENDIX
BRONX-LEBANON INTEGRATED SERVICES SYSTEM, INC., COMMENTS 





 19vdptD/ucfgl!         August 2, 2010


 Rev SnlQ8 Fliwla      James p, Edect 

  V'itf.c/toJlJpl~_
                       Regional Inspector General for Audit Services 

    -...,


   """'­
    LlllsFebfn
                       Department of Health & Human Services 

                       Region II 

                       Jacob Iavils Federal Building 

     """"~,
                       New York, NY 10278 


                       Dear Mr, Edect: 

                       On behalfofBLISS and its sUb-recipients, I would like to thank you for the Office oflnspector 

   D. LMEr.'           General's (010) limited scope review. 


                       We have reviewed the draft repoct and concur with the findings that we overstated the FTEs in 

                       the second and third repocting periods, and understated expenses in the third reporting period. 

                       In both instances, these errors were due to a misunderstanding of the reporting guidelines by 

                       steffmembers, 


                       We have taken several steps to ensure that the future reports are submitted accurately: 

                        a. 	 Prior to the audit, BLISS had begun drafting a written ARRA policy and procedure
                             statement. This statement has now been updated to include current Federal guidance, and
                        b. 	 it lays out the steps necessary for proper reporting.
                        c. 	 BLISS staff participated in ARRA traininglwebinars (sponsored by NACHC and HRSA)
                             on modifications to the HCQR repoct.
                        d. 	 We have instituted a prOCess where BLISS staff review OMB, HCQR and HRSA
                             guidance on an ongoing basis to stay abreast of modifications to the reporting process,
                        e. 	 We have implemented a standardized quarterly data collection worksheet that will enable
                             staff to accurately compile the required information and eliminate miscommunications.
                        f, 	 We have created an evaluation spreadsheet which will facilitate a comprehensive review
                             by all data providers prior to .submission of each quarterly repoct.
                        g. 	 Reports will not be submitted until the evaluation spreadsheet has been fully reviewed
                             and approved.

                      We believe that the procedures put in place will greatly improve the reporting process and
                      prevent the submission of inaccurate reports in the future.

                      Sincerely,

                      ISaudah Muhammad!
                      Executive Director



                                                                                                1150 Solwyn, Apl11H !floor
                                                                                                     BronK. New YOlk 10467
                                                                                                  Te',pt'lon,: 171& 4"..1U
                                                                                                        Fu: 1718 41St·.Ut
                                                                                                    Emlli/: Br"b•.,oI,com
